HHS/OIG-Audit--"Office of Inspector General's Partnership Plan--Louisiana
Legilsative Auditors Office Report on Laboratory Services, (A-06-95-00031)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan--Louisiana Legislative Auditors
Office Report on Laboratory Services," (A-06-95-00031)
December 12, 1995
Complete
Text of Report is available in PDF format (1.57 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents results of an audit of the Medicaid non-inpatient laboratory
services program in Louisiana for the period January 1, 1993 through December 31,
1994. This review was conducted by the Louisiana Legislative Auditor (LLA). This
work was conducted as part of our partnership efforts with State Auditors to expand
audit coverage of the Medicaid program. The LLA found that edits to ensure that
laboratory services are properly bundled were not sufficient to detect and prevent
payments for tests that were not properly bundled and/or duplicated. Also, failure
to require the bundling of two individual automated tests could result in additional
costs to the State and Medicaid program. Finally, Medicaid fee schedules were not
updated in a timely manner.